APPENDIX

TABLE OF CONTENTS

Appendix A:

Court of appeals opinion,
May 6, 2019 ...................................................... 1a

Appendix B:

District court opinion,
August 25, 2017 ............................................... 9a

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

No. 17-56324

CONSUMER FINANCIAL PROTECTION BUREAU
Petitioner-Appellee
v.
SEILA LAW LLC,
Respondent-Appellant

Filed: May 6, 2019
Before: GRABER and WATFORD, Circuit Judges,
and ZOUHARY,* District Judge.
OPINION
WATFORD, Circuit Judge.
The Consumer Financial Protection Bureau (CFPB)
is investigating Seila Law LLC, a law firm that provides
a wide range of legal services to its clients, including debtrelief services. The CFPB is seeking to determine
The Honorable Jack Zouhary, United States District Judge for
the Northern District of Ohio, sitting by designation.
*

2a
whether Seila Law violated the Telemarketing Sales
Rule, 16 C.F.R. pt. 310, in the course of providing debtrelief services to consumers. As part of its investigation,
the CFPB issued a civil investigative demand (CID) to
Seila Law that requires the firm to respond to seven interrogatories and four requests for documents. See 12
U.S.C. § 5562(c)(1). After Seila Law refused to comply
with the CID, the CFPB filed a petition in the district
court to enforce compliance. See § 5562(e)(1). The district
court granted the petition and ordered Seila Law to comply with the CID, subject to one modification that the
CFPB does not contest. Seila Law challenges the district
court’s order on two grounds, both of which we reject.
I
Seila Law’s main argument is that the CFPB is unconstitutionally structured, thereby rendering the CID (and
everything else the agency has done) unlawful. Specifically, Seila Law argues that the CFPB’s structure violates
the Constitution’s separation of powers because the
agency is headed by a single Director who exercises substantial executive power but can be removed by the President only for cause. The arguments for and against that
view have been thoroughly canvassed in the majority, concurring, and dissenting opinions in PHH Corp. v. CFPB,
881 F.3d 75 (D.C. Cir. 2018) (en banc). We see no need to
re-plow the same ground here. After providing a summary of the CFPB’s structure, we explain in brief why we
agree with the conclusion reached by the PHH Corp. majority.
Congress created the CFPB in 2010 when it enacted
the Consumer Financial Protection Act, 12 U.S.C.
§§ 5481-5603. The Act confers upon the CFPB a broad
array of powers to implement and enforce federal con-

3a
sumer financial laws, with the overarching goals of “ensuring that all consumers have access to markets for consumer financial products and services and that markets
for consumer financial products and services are fair,
transparent, and competitive.” 12 U.S.C. § 5511(a). The
agency’s powers include, among other things, the authority to promulgate rules (§ 5512), conduct investigations
(§ 5562), adjudicate administrative enforcement proceedings (§ 5563), and file civil actions in federal court (§ 5564).
Congress classified the CFPB as “an Executive agency”
and chose to house it within the Federal Reserve System.
§ 5491(a).
The CFPB is led by a single Director appointed by the
President with the advice and consent of the Senate.
§ 5491(b). The Director serves for a term of five years
that may be extended until a successor has been appointed and confirmed. § 5491(c)(1)-(2). The Director
may be removed by the President only for “inefficiency,
neglect of duty, or malfeasance in office.” § 5491(c)(3). A
provision of this sort is commonly referred to as a “for
cause” restriction on the President’s removal authority.
Seila Law contends that an agency with the CFPB’s
broad law-enforcement powers may not be headed by a
single Director removable by the President only for cause.
That argument is not without force. The Director exercises substantial executive power similar to the power exercised by heads of Executive Branch departments, at
least some of whom, it has long been assumed, must be
removable by the President at will. The Supreme Court’s
separation-of-powers decisions, in particular Humphrey’s
Executor v. United States, 295 U.S. 602 (1935), and Morrison v. Olson, 487 U.S. 654 (1988), nonetheless lead us to
conclude that the CFPB’s structure is constitutionally
permissible.

4a
In Humphrey’s Executor, the Court rejected a separation-of-powers challenge to the structure of the Federal
Trade Commission (FTC), an agency similar in character
to the CFPB. The petitioner in that case argued that the
FTC’s structure violates Article II of the Constitution because the agency’s five Commissioners, although appointed by the President with the advice and consent of
the Senate, may be removed by the President only for
cause. The Court rejected that argument, relying heavily
on its determination that the agency exercised mostly
quasi-legislative and quasi-judicial powers, rather than
purely executive powers. 295 U.S. at 628, 631-32. The
Court reasoned that it was permissible for Congress to
decide, “in creating quasi-legislative or quasi-judicial
agencies, to require them to act in discharge of their duties independently of executive control.” Id. at 629. The
for-cause removal restriction at issue there, the Court
concluded, was a permissible means of ensuring that the
FTC’s Commissioners would “maintain an attitude of independence” from the President’s control. Id.
This reasoning, it seems to us, applies equally to the
CFPB, whose Director is subject to the same for-cause
removal restriction at issue in Humphrey’s Executor.
Like the FTC, the CFPB exercises quasi-legislative and
quasi-judicial powers, and Congress could therefore seek
to ensure that the agency discharges those responsibilities independently of the President’s will. In addition, as
the PHH Corp. majority noted, the CFPB acts in part as
a financial regulator, a role that has historically been
viewed as calling for a measure of independence from Executive Branch control. 881 F.3d at 91-92.
To be sure, there are differences between the CFPB
and the FTC as it existed when Humphrey’s Executor
was decided in 1935. The Court’s subsequent decision in
Morrison v. Olson, however, precludes us from relying on

5a
those differences as a basis for distinguishing Humphrey’s Executor.
The most prominent difference between the two agencies is that, while both exercise quasi-legislative and
quasi-judicial powers, the CFPB possesses substantially
more executive power than the FTC did back in 1935. But
Congress has since conferred executive functions of similar scope upon the FTC, and the Court in Morrison suggested that this change in the mix of agency powers has
not undermined the constitutionality of the FTC. See
Morrison, 487 U.S. at 692 n.31. Indeed, in Morrison the
Court upheld the constitutionality of a for-cause removal
restriction for an official exercising one of the most significant forms of executive authority: the power to investigate and prosecute criminal wrongdoing. And more recently, in Free Enterprise Fund v. Public Company Accounting Oversight Board, 561 U.S. 477 (2010), the Court
left undisturbed a for-cause removal restriction for Commissioners of the Securities and Exchange Commission,
who are charged with overseeing a board that exercises
“significant executive power.” Id. at 514.
The other notable difference between the two agencies
is that the CFPB is headed by a single Director whereas
the FTC is headed by five Commissioners. Some have
found this structural difference dispositive for separationof-powers purposes. See PHH Corp., 881 F.3d at 165-66
(Kavanaugh, J., dissenting). But as the PHH Corp. majority noted, see id. at 98-99, the Supreme Court’s decision
in Humphrey’s Executor did not appear to turn on the
fact that the FTC was headed by five Commissioners rather than a single individual. The Court made no mention
of the agency’s multi-member leadership structure when
analyzing the constitutional validity of the for-cause removal restriction at issue. See Humphrey’s Executor, 295
U.S. at 626-31. And the Court’s subsequent decision in

6a
Morrison seems to preclude drawing a constitutional distinction between multi-member and single-individual
leadership structures, since the Court in that case upheld
a for-cause removal restriction for a prosecutorial entity
headed by a single independent counsel. 487 U.S. at 69697; see PHH Corp., 881 F.3d at 113 (Tatel, J., concurring).
As the PHH Corp. majority noted, if an agency’s leadership is protected by a for-cause removal restriction, the
President can arguably exert more effective control over
the agency if it is headed by a single individual rather than
a multi-member body. See 881 F.3d at 97-98.
In short, we view Humphrey’s Executor and Morrison as controlling here. Those cases indicate that the forcause removal restriction protecting the CFPB’s Director
does not “impede the President’s ability to perform his
constitutional duty” to ensure that the laws are faithfully
executed. Morrison, 487 U.S. at 691. The Supreme Court
is of course free to revisit those precedents, but we are
not.
II
Seila Law next argues that the CFPB lacked statutory
authority to issue the CID. It asserts two separate
grounds in support of this argument.
First, Seila Law contends that the CID violates the
Consumer Financial Protection Act’s practice-of-law exclusion. That exclusion provides, with important exceptions, that the CFPB “may not exercise any supervisory
or enforcement authority with respect to an activity engaged in by an attorney as part of the practice of law under the laws of a State in which the attorney is licensed to
practice law.” 12 U.S.C. § 5517(e)(1). Seila Law argues
that the CID is invalid because it requests information related to Seila Law’s activities in providing legal services

7a
to its clients. Specifically, the CID seeks information relevant to determining whether Seila Law has violated the
Telemarketing Sales Rule “in the advertising, marketing,
or sale of debt relief services or products, including but
not limited to debt negotiation, debt elimination, debt settlement, and credit counseling.”
The district court correctly held that one of the exceptions to § 5517(e)(1)’s practice-of-law exclusion applies
here. Section 5517(e)(3) states: “Paragraph (1) shall not
be construed so as to limit the authority of the Bureau
with respect to any attorney, to the extent that such attorney is otherwise subject to any of the enumerated consumer laws or the authorities transferred under subtitle
F or H.” Subtitle H empowers the CFPB to enforce the
Telemarketing Sales Rule, 16 C.F.R. pt. 310, a consumer
law that does not exempt attorneys from its coverage even
when they are engaged in providing legal services. See 15
U.S.C. § 6102; Telemarketing Sales Rule, 75 Fed. Reg.
48,458-01, 48,467-69 (Aug. 10, 2010). The CFPB thus has
the authority to investigate whether Seila Law is violating
the Telemarketing Sales Rule, without regard to the general practice-of-law exclusion stated in § 5517(e)(1).
Second, Seila Law contends that the CID violates 12
U.S.C. § 5562(c)(2), which provides that “[e]ach civil investigative demand shall state the nature of the conduct constituting the alleged violation which is under investigation
and the provision of law applicable to such violation.” The
CID at issue here fully complies with this provision. It
identifies the allegedly illegal conduct under investigation
as follows: “whether debt relief providers, lead generators, or other unnamed persons are engaging in unlawful
acts or practices in the advertising, marketing, or sale of
debt relief services or products, including but not limited
to debt negotiation, debt elimination, debt settlement, and
credit counseling.” The CID also identifies the provision

8a
of law applicable to the alleged violation as “Sections 1031
and 1036 of the Consumer Financial Protection Act of
2010, 12 U.S.C. §§ 5531, 5536; 12 U.S.C. § 5481 et seq., the
Telemarketing Sales Rule, 16 C.F.R. § 310.1 et seq., or
any other Federal consumer financial law.” That information suffices to put Seila Law on notice of the nature of
the conduct the CFPB is investigating, and it is not so
general as to raise vagueness or overbreadth concerns.
See United States v. Morton Salt Co., 338 U.S. 632, 652
(1950).
AFFIRMED.

9a
APPENDIX B
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
SOUTHERN DIVISION

No. 17-1081

CONSUMER FINANCIAL PROTECTION BUREAU,
Petitioner,
v.
SEILA LAW, LLC,
Respondent.

Filed: August 25, 2017

ORDER GRANTING IN PART PETITION TO
ENFORCE CIVIL INVESTIGATIVE DEMAND
STANTON, United States District Judge.
Before the Court is the Consumer Financial Protection Bureau’s (CFPB) Petition to Enforce Civil Investigative Demand. (Pet., Doc. 1.) Respondent Selia Law, LLC,
has submitted an Opposition (Opp’n, Doc. 20), and the
CFPB has filed a Reply (Reply, Doc. 21). After carefully
reviewing the papers, the Court GRANTS IN PART the
Petition.

10a
I.

BACKGROUND

On February 27, 2017, the CFPB issued a Civil Investigative Demand to Seila Law, LLC, which included a notification of purpose, indicating:
The purpose of this investigation is to determine
whether debt relief providers, lead generators, or
other unnamed persons are engaging in unlawful acts
or practices in the advertising, marketing, or sale of
debt relief services or products, including but not limited to debt negotiation, debt elimination, debt settlement, and credit counseling, in violation of Sections
1031 and 1036 of the Consumer Financial Protection
Act of 2010, 12 USC §§ 5531, 5536; 12 U.S.C. § 5481 et
seq., the Telemarketing Sales Rule, 16 C.F.R. § 310.1
et seq., or any other Federal consumer financial law.
The purpose of this investigation is also to determine
whether Bureau action to obtain legal or equitable relief would be in the public interest.
(CID, Exh. 1, Doc. 1-2.) On March 19, 2017, Seila Law
filed a petition to set aside or modify the Civil Investigative Demand (Pet. Set Aside, Exh. 5, Doc. 20-1), which the
CFPB Director denied on April 10, 2017 (CFPB Decision,
Exh. 2, Doc. 1-2). The decision ordered Seila Law to “produce all responsive documents, items, and information
within its possession, custody, or control that are covered
by the CID” within ten days. (Id. at 5.) Seila Law asked
for extension of time to comply with the CID, which the
CFPB granted. (Singelmann Decl. ¶ 9, Doc. 1-2.)
On April 27, 2017, Seila Law submitted its response to
the CID. (Id. ¶ 10.) A week later, the CFPB sent Seila
Law a letter claiming that Seila Law’s response improperly asserted general objections, failed to provide a privilege log for claims of attorney-client and attorney work

11a
product privilege, raise untimely claims of privilege, withheld relevant documents based on assertions of “confidentiality,” and otherwise provided incomplete or deficient
responses. (CFPB May 4 Letter, Exh. 3. Doc. 1-2.) Seila
Law responded in a letter dated May 22, 2017, challenging
the “the enforceability of the CID” and “declin[ing] the
CFPB’s request at this time to provide further information or documents in response to the CID.” (Seila Law
Letter May 22, Exh. 4, Doc. 1-2.) In response, the CFPB
filed in this Petition to Enforce its Civil Investigative Demand. (Pet., Doc. 1.)
II. LEGAL STANDARD

“To determine whether to enforce an administrative
subpoena, a court consideres ‘[1] whether Congress has
granted the authority to investigate; [2] whether procedural requirements have been followed; and [3] whether
the evidence is relevant the material to the investigation.’”
CFPB v. Future Income Payments, LLC, No. 8:17-CV00303-JLS-SS, 2017 WL 2190069, at *2 (C.D. Cal. May 17,
2017) (quoting EEOC v. Children’s Hosp. Med. Ctr. of N.
Cal., 719 F.2d 1426, 1428 (9th Cir. 1983) (en banc), overruled on other grounds as recognized in Prudential Ins.
Co. v. Lai, 42 F.3d 1299, 1303 (9th Cir. 1994)). If the
agency has satisfied these “narrow” requirements, a court
should enforce an administrative subpoena unless the respondent can demonstrate that compliance would pose an
undue burden. Id.; Children’s Hosp. Med. Ctr. of N. California, 719 F.2d at 1428. In response to a petition to enforce an administrative subpoena, a subpoenaed party is
free to raise any constitutional challenges, which this
Court reviews a plenary basis. Future Income Payments,
2017 WL 2190069, at *2.

12a
III. DISCUSSION

Selia Law objects to the enforcement of the CFPB’s
Civil Investigative Demand because, it asserts, (1) the
CFPB is unconstitutionally structured, (2) the notification
of purpose is inadequate, (3) the CFPB’s practice of law
exclusion would preclude any enforcement action, and (4)
the CID is overly broad and seeks privileged information.1
(Opp’n 10-16.) The court considers each argument in turn.
A. CFPB’s Constitutionality

In CFPB v. Morgan Drexen and CFPB v. Future Income Payments, this Court addressed the same constitutional challenges that Seila Law raises. See Future Income Payments, 2017 WL 2190069, at *6-9; CFPB v. Morgan Drexen, Inc., 60 F. Supp. 3d 1082, 1086-92 (C.D. Cal.
2014). Like the respondent in Future Income Payments,
Seila Law relies heavily on the arguments advanced in
PHH Corp v. CFPB, a vacated 2-1 decision from the D.C.
Circuit that this Court continues to find unpersuasive.
(See Opp’n at 3-7.) Notably, the PHH majority acknowledged, “‘there is no meaningful difference in responsiveness and accountability to the President’ between an
agency headed by a commission and a director.” Future
Income Payments, 2017 WL 2190069, at *7 (quoting
PHH, 839 F.3d at 32). “That is enough to end the inquiry”
because the controlling standard enunciated in Morrison
v. Olson is whether the CFPB Director’s for-cause protection from removal “‘interfere[s] with the President’s
exercise of the ‘executive power’ and his constitutionally
appointed duty to ‘take care that the laws be faithfully ex-

The Court does not separately consider Seila Law’s fleeting
Fourth and Fifth Amendment objections because they are entirely
derivative of its other arguments. (See Opp’n at 8.)
1

13a
ecuted’ under Article II.’” Id. (quoting Morrison v. Olson, 487 U.S. 654, 690 (1988)). Even if Morrison were not
controlling, there is no meaningful constitutional distinction that could be drawn between the CFPB and other director-led independent agencies, such as the Social Security Administration, and no “empirical evidence . . . establishes the superiority of either” director or multimemberled independent agencies. Id. at *5-8.
To the extent that Seila Law argues that the CFPB is
unconstitutionally structured because the agency receives
funding outside of the annual Congressional appropriations process (Opp’n at 7), the CFPB is no different than
several other financial regulators, such as the Federal Reserve Board, the Office of the Comptroller of the Currency, and the Federal Deposit Insurance Corporation.
See Adam J. Levitin, The Consumer Financial Protection
Bureau: An Introduction, 32 Rev. Banking & Fin. L. 321,
343 (2013). In fact, unlike these other agencies, the
CFPB’s non-appropriated budget is capped by statue.
See id. Further, “[t]he Appropriations Clause ‘does not in
any way circumscribe Congress from creating self-financing programs . . . without first appropriating the funds as
it does in typical appropriation and supplement appropriation acts.” Morgan Drexen, 60 F. Supp. 3d at 1089 (quoting AINS, Inc. v. United States, 56 Fed.Cl.522, 539 (Fed.
Cl. 2003), aff’d, 365 F.3d 1333 (Fed. Cir. 2004), abrogated
on other grounds by Slattery v. United States, 635 F.3d
1298 (Fed. Cir. 2011)). Accord Am. Fed’n of Gov’t Employees, AFL-CIO, Local 1647 v. Fed. Labor Relations
Auth., 388 F.3d 405, 409 (3d Cir. 2004) (“Congress itself
may choose . . . to loosen its own reins on public expenditure. . . . Congress may also decide not to finance a federal
entity with appropriations.”).
Even assuming that Morrison were not controlling
and an independent agency could not be constitutionally

14a
headed by a director, the proper remedy would not be to
refuse to enforce the CID. Future Income Payments,
2017 WL 2190069, at *9. In Buckley v. Valeo, for example,
the Supreme Court held that the process for appointing
commissioners to the Federal Election Commission trammeled upon the President’s Appointments Power. 424
U.S. 1, 140 (1976). Yet, the Court held, “[i]nsofar as the
powers confided in the Commission are essentially of an
investigative and informative nature” the agency may execute them because Congress may properly establish offices that “perform duties . . . in aid of those functions that
Congress may carry out by itself.” Id. at 138-39. Because
Congress unquestionably wields the subpoena power, see
e.g., Eastland v. U.S. Servicemen’s Fund, 421 U.S. 419,
504 (1975), the CFPB may lawfully execute this authority
as well. Future Income Payments, 2017 WL 2190069, at
*9; see In re Application of President’s Comm’n on Organized Crime, 763 F.2d 1191, 1201-02 (11th Cir. 1985) (Fay,
J., writing separately).
B. Notification of Purpose

Seila Law further protests that the CID fails to provide sufficient notice about the purpose and contours of
the CFPB’s investigation. (Opp’n at 9-10.) As recounted
already, the CID’s notification of purpose provides:
The purpose of this investigation is to determine
whether debt relief providers, lead generators, or
other unnamed persons are engaging in unlawful acts
or practices in the advertising, marketing or sale of
debt relief services or products, including but not limited to debt negotiation, debt elimination, debt settlement, and credit counseling, in violation of Sections
1031 and 1036 of the Consumer Financial Protection
Act of 2010, 12 USC §§ 5531, 5536; 12 U.S.C. § 5481 et
seq., the Telemarketing Sales Rule, 16 C.F.R. § 310.1

15a
et seq., or any other Federal consumer financial law.
The purpose of this investigation is also to determine
whether Bureau action to obtain legal or equitable relief would be in the public interest.
(CID, Exh. 1.)
“The authority of an administrative agency to issue
subpoenas for investigatory purposes is created solely by
statute.” United States ex rel. Richards v. De Leon Guerrero, 4 F.3d 749, 753 (9th Cir. 1993) (quoting Peters v.
United States, 853 F.2d 692, 696 (9th Cir.1988)). Section
5562, which empowers the CFPB to issue civil investigative demands, provides that “[e]ach civil investigative demand shall state the nature of the conduct constituting the
alleged violation which is under investigation and the provision of law applicable to such violation.” 12 U.S.C.
§ 5562(c)(2). The CFPB’s implementing regulation likewise provides that a subpoenaed person “shall be advised
of the nature of the conduct constituting the alleged violation that is under investigation and the provisions of law
applicable to such violation.” 12 C.F.R. § 1080.5. Yet, like
every other administrative agency, the CFPB can define
the contours of its investigation “quite generally” while
still complying with its statutory obligations. FTC v. Invention Submission Corp., 965 F.2d 1086, 1088, 1090
(D.C. Cir. 1992); see FTC v. Carter, 636 F.2d 781, 784, 78789 (D.C. Cir. 1980) (approving of a very broad notification
of purpose); FTC v. Texaco, Inc., 555 F.2d 862, 868, 874,
& n. 26 (D.C. Cir. 1977) (same).
A few examples illustrate when an agency crosses
from defining the scope of its investigation broadly, which
it may do, to violating its statutory notice requirements.
In Peters v. United States, the Ninth Circuit held that, although the Immigration and Naturalization Service had a
“broad subpoena and investigatory authority,” it could not

16a
issue so-called “John Doe” subpoenas, which demand information about unknown targets of an investigation from
third parties. 853 F.2d 692, 696-99 (9th Cir. 1988). Similarly, in In re Sealed Case (Admin. Subpoena), the D.C.
Circuit affirmed the district court’s determination that
the Office of Thrift Supervision could seek information for
two stated purposes, but determined that the agency had
no authority to demand information for a third proffered
purpose, namely to determine whether the targets of the
investigation committed “other wrongdoing, as yet unknown.” 42 F.3d 1412, 1415-19 (D.C. Cir. 1994). More recently, in CFPB v. Accrediting Council for Independent
Colleges & Schools, the D.C. Circuit held that a notification of purpose stating that “the purpose of this investigation is to determine whether any entity or person has engaged or is engaging in unlawful acts and practices in connection with accrediting for-profit colleges” failed to identify adequately the conduct subject to the investigation.
854 F.3d 683, 690 (D.C. Cir. 2017). The D.C. Circuit reaffirmed that “a notification of purpose may use broad
terms to articulate an investigation’s purpose[,]” but
found that “§ 5562(c)(2) mandates that the Bureau provide the recipient of the CID with sufficient notice as to
the nature of the conduct and the alleged violation under
investigation.” Id. The notification of purpose provided
no clue about what “unlawful acts and practices” were under investigation. Id. This shortcoming made it impossible to determine what the CFPB was investigating or
whether any investigation was within the scope of its statutory authority. Id. at 690-91.
Seila Law cleverly uses ellipses to suggest that the
CID’s notification of purpose provides no clue about the
nature of the CFPB’s investigation other than that the
agency seeks “to determine whether . . . unnamed persons

17a
are engaging in unlawful acts or practices in the advertising, marketing, or sale of debt relief services or products
. . . in violation of . . . any other Federal consumer financial
law.” (Opp’n at 9-10.) But what Seila Law omits through
ellipses provides the fair notice that it supposedly seeks.
The CID identifies specific types of businesses under investigation (“debt relief providers” and “lead generators”), the conduct subject to investigation (“advertising,
marketing, or sale of debt relief services or products, including but not limited to debt negotiation, debt elimination, debt settlement, and credit counseling”), and specific
statues and regulations that may have been violated (such
as the Telemarketing Sales Rule, 16 C.F.R. § 310.1 et
seq.). Seila Law’s argument reduces to arguing that an
administrative agency cannot use more general categories at the end of lists in a notification of purpose. That,
however, is not the law. The D.C. Circuit has long affirmed the use of such phrasing, see, e.g., Texaco, Inc., 555
F.2d at 868 (approving of a notification of purpose that
listed certain companies and then included the more general phrase “other persons and corporations”), and Accrediting Council for Independent Colleges & School held
simply that a notification of purpose cannot include only
broad catch-alls. Indeed, under the ejusdem generis and
noscitur a sociis canons of construction, the broader categories included in this CID are limited based on the
other items included in the lists. And unlike in Peters, the
CFPB is not seeking to enforce a John Doe subpoena; the
CFPB seeks information about Seila Law from Seila Law.
Accordingly, Seila Law’s contention that the CID’s notification of purpose is inadequate lacks merit.
C. Practice of Law Exclusion

Seila Law next contends the CFPB’s practice of law
exclusion would bar any enforcement action against it.

18a
(Opp’n at 10-14.) This court recently rejected this argument in the related case CFPB v. Howard. See Order
Denying Defendants’ Motion to Dismiss at 5-8, Doc. 42,
Case No. 8:17-cv-00161-JLS-JEM (May 26, 2017). To
summarize, section 5517(e)(3) (“Paragraph 3”) provides
that the Consumer Financial Protection Act’s general
prohibition against the CFPB regulating the practice of
law “shall not be construed so as to limit the authority of
the Bureau with respect to any attorney, to the extent that
such attorney is otherwise subject to any of the enumerated consumer laws or the authorities transferred under
subtitle F or H.” 12 U.S.C. § 5517(e)(3). Section 1100C in
subtitle H of the Consumer Financial Protection Act empowers the CFPB to enforce the Telemarketing Sales
Rule, a regulation promulgated by the FTC that does not
contain an exception for those engaged in the practice of
law. See Dodd-Frank Wall Street Reform and Consumer
Protection Act, Pub. L. No. 111-203, § 1100C, 124 Stat.
1376, 2111 (2010); see also Telemarketing Sales Rule, 75
Fed. Reg. 48458, 48467-69 (Aug. 10, 2010) (declining to
make an exception for the practice of law in the TSR
amendments). As such, the practice of law exclusion does
not bar the CFPB from enforcing the Telemarketing
Sales Rule against Seila Law. See FTC v. Lainer Law,
LLC, 194 F. Supp. 3d 1238, 1283 (M.D. Fla. 2016). While
Seila Law references a district court that adopted a contrary interpretation based on policy concerns (Opp’n at
12-13), this Court opts instead to follow the plain meaning
of Paragraph 3, which unmistakably empowers the CFPB
to take enforcement actions against attorneys under the
transferred authorities insofar as those transferred authorities implicate the practice of law. Congress included
the practice of law exclusion to ensure that the CFPB did
not employ its general authority over unfair, deceptive,

19a
and abusive practices to regulate the practice of law. Order Denying Defendants’ Motion to Dismiss at 7, Doc. 42,
Case No. 8:17-cv-00161-JLS-JEM (May 26, 2017). But, to
the extent that Congress enacted other statutes that already affect the legal field, nothing in the practice of law
exclusion suggests Congress intended a massive curtailment of federal enforcement authority. Id.
Seila Law’s contrary interpretation—that Paragraphs
3 merely means that “an attorney is not exempt from enforcement by the CFPB merely because his or her status
as an attorney . . . .” (Opp’n at 13)—would render it entirely superfluous because section 5517(e)(2) (“Paragraph
2”) already accomplishes this. See 12 U.S.C. § 5517(e)(2)
(allowing the CFPB to regulate attorneys’ provision of
covered products that are “not offered or provided as part
of, or incidental to, the practice of law” or that are provided to a consumer “who is not receiving legal advice or
services from the attorney in connection with such financial product or service”). “A cardinal principle of statutory construction” teaches that “a statue ought, upon the
whole, to be so construed that, if it can be prevented, no
clause, sentence, or word shall be superfluous, void, or insignificant.” TRW Inc. v. Andrews, 534 U.S. 19, 31 (2001)
(quoting Duncan v. Walker, 533 U.S. 167, 174 (2001)).
Paragraph 3 offers a classic instance where the canon
against surplusage should be applied: Seila Law’s construction would mean, quite improbably, that Congress
fashioned an entirely redundant statutory provision immediately following the provision that would render that
provision redundant. Because courts should resist ascribing that odd statutory drafting to Congress and plain language supports the CFPB’s construction, the Court concludes that the practice of law exclusion would not bar an
enforcement action by the agency.

20a
D.

Overbreadth and Vagueness

Seila Law finally challenges a few of the CID’s interrogatories and requests for documents as overbroad or
vague. (Opp’n at 14-16.) The CFPB responds that Seila
Law has waived these arguments, and that the CID seeks
only relevant information. (Reply at 13-16.)
“Courts ‘generally will not entertain a challenge to a
subpoena that was not first brought before the [administrative agency].’” NLRB v. Uber Techs., Inc., 216 F.
Supp. 3d 1004, 1007 (N.D. Cal. 2016) (quoting NLRB v.
Fresh & Easy Neighborhood Mkt., Inc., 805 F.3d 1155,
1159 (9th Cir. 2015)). This administrative exhaustion requirement “is grounded in important prudential considerations, such as providing an agency with the opportunity
to correct its mistakes before it is haled into court and ensuring that parties do not employ judicial review to
weaken an agency’s administrative processes.” Seraji v.
Gowadia, No. 8:16-CV-01637-JLS-JCG, 2017 WL
2628545, at *3 (C.D. Cal. Apr. 28, 2017) (Staton, J.); see
Fresh & Easy Neighborhood Mkt., Inc., 805 F.3d at 1159
(noting that the exhaustion requirement reflects “deference to the Board’s interest and expertise in managing the
cases before it”). Courts have excused a subpoenaed
party’s failure to exhaust its administrative remedies
where it raises a constitutional challenge or identifies “exceptional circumstances.” Uber Techs., Inc., 216 F. Supp.
3d at 1007; see EEOC v. Lutheran Soc. Servs., 186 F.3d
959, 964-67 (D.C. Cir. 1999); EEOC v. Cuzzens of Georgia,
Inc., 608 F.2d 1062, 1064 (5th Cir. 1979).
Seila Law raised its overbreadth and vagueness objections to certain interrogatories and requests for documents in its petition to set aside or modify the CID. (Pet.
Set Aside, Exh. 5.) The CFPB declined to consider these
arguments, reasoning that Seila Law failed to comply with

21a
12 C.F.R § 1080.6 because it did not “submit specific modification requests in writing” during the meet-and-confer
process. (CFPB Decision at 4-5, Exh. 2.) The applicable
regulation, however, does not provide that a party waives
its challenges by failing to submit proposed written modifications during the meet-and-confer process; all it says
is that, in a petition to set aside a CID, the agency “will
consider only issues raised during the meet-and-confer
process.” 12 C.F.R. § 1080.6(c)(3). Because neither side
suggests that Seila Law failed to raise its specific concerns during the meet-and-confer process, Seila Law did
not waive these objections.
Seila Law contends that the CID’s request for information about “other services,” or simply “services,” could
be construed to encompass information related to the
firm’s immigration, personal injury, criminal defense, and
real estate practices that have nothing to do with the
stated purposes of the subpoena. (Opp’n at 15-16; see also
Opp’n at 11-12.) The Court agrees. The CID does not define what “other services” are, and the CFPB has not articulated how any investigation into Seila Law’s immigration, personal injury, criminal defense, or real estate practices would not be barred by the CFPB’s practice of law
exclusion. The court will accordingly limit the definition
of “other services” in Interrogatories Nos. 5 and 6 to the
areas of inquiry identified in the CID that would not be
barred by other CFPB’s practice of law exclusion, specifically the “advertising, marketing, or sale of debt relief
services or products,” including “debt negotiation, debt
elimination, debt settlement, and credit counseling.”
(CID, Exh. 1.) Similarly, the mention of “services” in Interrogatory No. 5 and Requests for Documents Nos. 2 and
4 shall be limited to the “advertising, marketing or sale of
debt relief services or products,” including “debt negotia-

22a
tion, debt elimination, debt settlement, and credit counseling.” By narrowing the definition of “other services”
and “services,” the Court also ensures that the definition
of “consumer” will not sweep in information unrelated to
the stated lawful purposed of this investigation.2 (See
Opp’n at 15.)
Separately, Seila Law complains that the term “affiliated” in Interrogatory No. 4—and by cross-reference Request for Documents No. 3—is vague and overbroad.
(Opp’n at 14-15.) As the CFPB has not defined the term,
there is no reason to suggest that the word should not take
its commonsense meaning in this context—specifically,
those who had a close professional connection or association with Seila Law or Aissac Seila Aiono during the relevant period. See, e.g., Merriam-Webster’s Collegiate Dictionary 21 (11th ed. 2003). Under this plain-meaning interpretation, the court rejects Seila Law’s suggestion that
the word “affiliated” is vague and overbroad. The requested information is necessary, for instance, to determine whether “the Howard defendants . . . transferred the
debt relief business, including the files of former Morgan
Drexen consumers, to Seila Law.” (Notice of Related
Case at 3, Doc. 5.)
Finally, Seila Law claims that the CID seeks information projected by the attorney-client and work product
privileges. (Opp’n at 16.) But, like in any civil litigation,
Seila Law must first make an adequate privilege log (see
CID at Instruction D, Exh. 1), which it has not done yet.
Seila Law contends that the CFPB cannot seek information about
attorneys’ marketing of “debt relief and other services,” because
states have traditionally regulated attorney advertising. (Opp’n at
15.) But the Telemarketing Sales Rule bars certain marketing practices for debt relief services when offered through telemarketing, see
16 C.F.R. § 310.4(a)(2), and Paragraph 3 commits the CFPB to enforcing the TSR, so Seila Law’s contention is unavailing.
2

23a
Thus, with the narrowing construction, the Court finds
that the CID seeks only relevant information and is not
vague.
IV. CONCLUSION

For the aforementioned reasons, CFPB’s petition is
GRANTED IN PART. Seila Law is hereby COMPELLED to comply with the CID within ten (10) days of
this order or at a later date as may be established by this
court or the CFPB, except for the following limitations to
the definition of “other services” and “services” in the
CID. “Services” and “other services” shall be construed
to mean the “advertising, marketing or sale of debt relief
services or products,” including “debt negotiation, debt
elimination, debt settlement, and credit counseling.”

